No. ________
____________________
IN THE SUPREME COURT OF THE UNITED STATES
____________________
In Re: Camp Lejeune, North Carolina Water Contamination Litigation.
____________________
ERICA Y. BRYANT, ROBERT BURNS, DANIEL J. GROSS, II, ROBERT PARK,
SHARON KAY BOLING, LINDA JONES, and ESTELLE RIVERA,
Petitioners (Applicants),
-

and -

ANDREW STRAW and JAMES NATHANIEL DOUSE,
Plaintiffs,
-

and -

LEANDRO PEREZ, et al.,
Plaintiffs,
v.
UNITED STATES OF AMERICA, DEPARTMENT OF THE NAVY, United States
of America, ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION
AGENCY, DIVISION DIRECTOR, DEPARTMENT OF ENVIRONMENTAL
PROTECTION AGENCY, SECRETARY OF THE NAVY,
Respondents.
____________________

APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR WRIT OF CERTIORARI

Jay L. T. Breakstone
Counsel of Record
Parker Waichman LLP
6 Harbor Park Drive
Port Washington, NY 11050
(516) 466-6500
jbreakstone@yourlawyer.com
Counsel for Linda Jones

Alton C. Todd
The Law Firm of Alton C. Todd
312 S. Friendswood Dr.
Friendswood, TX 77546
(281) 992-8633
alton@actlaw.com
Counsel for Robert Burns and
Daniel J. Gross, II

Robert B. Jackson, IV
Robert B. Jackson, IV, LLC
260 Peachtree Street – Suite 220
Atlanta, GA 30303
(404) 313-2039
rbj4law@gmail.com

Douglas Peter Desjardins
Transportation Injury Law Group
1717 N Street, NW
Suite 300
Washington, DC 20036
(202) 638-5300
dpd@pangialaw.com
Counsel for Sharon Kay Boling and
Robert Park

Donald D. J. Stack
Stack & Associates, PC
260 Peachtree Street – Suite 1200
Atlanta, GA 30303
(404) 525-9205
dstack@stackenv.com
Counsel for Erica Y. Bryant

James Edward Bell, III
Deloris King Cromartie
Bell Legal Group, LLC
219 Ridge Street
Georgetown, SC 29940
(843) 546-2408
jeb@edbelllaw.com
lori@edbelllaw.com
Counsel for Estelle Rivera

TO THE HONORABLE CLARENCE THOMAS, ASSOCIATE JUSTICE OF
THE SUPREME COURT OF THE UNITED STATES AND CIRCUIT
JUSTICE FOR THE ELEVENTH CIRCUIT
Pursuant to Rule 13.5, 22, and 30 of the Rules of the Court, petitioners request
a 60-day extension of time, up to and including February 3, 2020, to file a petition for
writ of certiorari to the United States Court of Appeals for the Eleventh Circuit to
review that court’s decision in In Re: Camp Lejeune, North Carolina Water
Contamination Litigation (Perez, et al.), attached as Exhibit A. This application is
filed by certain plaintiffs who will join together, through multiple counsel, to file a
single petition seeking such review. The jurisdiction of the Court will be invoked
under 28 U.S.C. § 1254(1). The 11th Circuit denied petitioners’ petitions for rehearing
and rehearing en banc on September 5, 2019, attached as Exhibit B.1 Without this
extension, the time to file a petition for certiorari will expire on December 4, 2019.
This application is timely because it has been filed more than ten days prior to the
date on which the time for filing the petition is to expire.
1.

This case presents critical questions for not only these representative

plaintiffs, but for countless other victims who were severely injured when the
Government provided them with contaminated water while they lived and worked at
Marine Corps Base Camp Lejeune in North Carolina in the 1970’s and 1980’s. Those
questions include whether or not liability for such acts should be barred by the

A copy of the opinion of the district court is reported at 263 F.Supp.3d 1318 (N.D.
Georgia 2016), reh’g den, 2017 WL 55053212 (2017), and is attached as Exhibit C.
1

discretionary function exception to the Federal Tort Claims Act, 28 U.S.C. § 2860(a),
and whether North Carolina’s ten-year statute of repose should bar such claims.
2.

In addition, this case also presents the question as to whether or not the

doctrine enunciated in Feres v. United States, 340 U.S. 135 (1950), should be extended
to those whose injuries were not incidental to their military service.
3.

Finally, the petition will examine whether the 11th Circuit, hearing this

matter as an MDL transferee court, was justified in failing to apply North Carolina’s
statute of repose as clarified by the legislature of that state; a clarification which
specifically explained that the state’s statute of repose would not bar petitioners’
claims if the claims were made in the state of North Carolina, a view adopted by the
4th Circuit, which covers North Carolina where Camp Lejeune is located. Stahle v.
CTS Corp., 817 F.3d 96 (4th Cir. 2016).
4.

These questions are central to the resolution of claims for injuries to

service men and women and their families.

Because of multiple claimants and

multiple counsel, it is necessary to not only coordinate work and resources, but to
ensure that such efforts result in a joint brief which fairly and adequately presents a
single voice on the multiple issues involved. As a practical matter, this presents
scheduling, coordination, and staffing concerns which have made it highly difficult to
prepare and file an appropriate petition under the present timeline.
5.

Petitioners respectfully request that an order be entered extending the

time in which to file a petition for certiorari for 60 days, up to and including February
3, 2020.

Dated: November 22, 2019

Respectfully submitted,

Jay L. T. Breakstone
Counsel of Record
Parker Waichman LLP
6 Harbor Park Drive
Port Washington, NY 11050
(516) 466-6500
jbreakstone@yourlawyer.com
Counsel for Linda Jones

Alton C. Todd
The Law Firm of Alton C. Todd
312 S. Friendswood Dr.
Friendswood, TX 77546
(281) 992-8633
alton@actlaw.com
Counsel for Robert Burns and
Daniel J. Gross, II

Robert B. Jackson, IV
Robert B. Jackson, IV, LLC
260 Peachtree Street – Suite 220
Atlanta, GA 30303
(404) 313-2039
rbj4law@gmail.com

Douglas Peter Desjardins
Transportation Injury Law Group
1717 N Street, NW
Suite 300
Washington, DC 20036
(202) 638-5300
dpd@pangialaw.com
Counsel for Sharon Kay Boling and
Robert Park

Donald D. J. Stack
Stack & Associates, PC
260 Peachtree Street – Suite 1200
Atlanta, GA 30303
(404) 525-9205
dstack@stackenv.com
Counsel for Erica Y. Bryant

James Edward Bell, III
Deloris King Cromartie
Bell Legal Group, LLC
219 Ridge Street
Georgetown, SC 29940
(843) 546-2408
jeb@edbelllaw.com
lori@edbelllaw.com
Counsel for Estelle Rivera

